<html>
<title> - NOMINATION OF HONORABLE ELAINE C. DUKE</title>
<body><pre>[Senate Hearing 115-356]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-356

                   NOMINATION OF HON. ELAINE C. DUKE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

NOMINATION OF THE HONORABLE ELAINE C. DUKE TO BE DEPUTY SECRETARY, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                             MARCH 8, 2017

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-770 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a> 
        
        
       
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
               Margaret E. Daum, Minority Staff Director
                Anna E. Laitin, Minority Policy Adviser
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Hassan...............................................    14
    Senator Harris...............................................    16
    Senator Heitkamp.............................................    18
    Senator Tester...............................................    21
    Senator Lankford.............................................    23
Prepared statements:
    Senator Johnson..............................................    33
    Senator McCaskill............................................    34

                               WITNESSES
                        Wednesday, March 8, 2017

Hon. Rob Portman, a U.S. Senator from the State of Ohio               4
Hon. Elaine C. Duke, to be Deputy Secretary, U.S. Department of 
  Homeland Security
    Testimony....................................................     5
    Prepared statement...........................................    37
    Biographical and financial information.......................    39
    Letter from the Office of Government Ethics..................    57
    Responses to pre-hearing questions...........................    60
    Responses to post-hearing questions..........................    95
    Letter of support............................................   117

                                APPENDIX

Chart Submitted by Senator Harris................................   119
Immigration Panel Transcript Submitted by Senator Harris.........   120
Letter from the Coalition for Human Immigrant Rights of Los 
  Angeles........................................................   200

 
                 NOMINATION OF HONORABLE ELAINE C. DUKE

                              ----------                              


                        WEDNESDAY, MARCH 8, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Daines, 
McCaskill, Tester, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. The hearing will come to 
order. We are meeting today to consider the nomination of Ms. 
Elaine Duke to be Deputy Secretary of the U.S. Department of 
Homeland Security (DHS). Ms. Duke, welcome. Senator Portman, 
welcome. You have your position there, but you will hopefully 
come up on the dais here.
    I do want to welcome Ms. Duke's family, and I will let you 
introduce your family during your opening remarks.
    This is an incredibly important position. I believe this is 
an incredibly important Department, particularly at the current 
time.
    The mission statement of this Committee is pretty 
straightforward--and I appreciate my new Ranking Member adding 
to 
it--but it is simple to state: to enhance the economic and 
national security of America and promote a more efficient, 
effective, and accountable government. And certainly from the 
homeland security side of it, we are really talking about the 
primary goals of securing our border, securing our homeland, 
our cyber assets, cybersecurity, protecting critical 
infrastructure, and combating violent extremism in any form.
    Ms. Duke, I appreciated the time we spent in the office. I 
thought it was interesting, and I am completely supportive of, 
I think, the management style and the management directed 
between yourself and the Secretary. It sounds like Secretary 
Kelly is going to be the boots on the ground, looking at the 
front lines, finding out what is happening there, really at the 
point of the spear. And you will be back here in Washington, 
D.C., holding down the fort. And you realize, because you have 
been there before, that there are a number of challenges with 
the Department. And so I appreciate your experience. I 
appreciate your willingness to serve.
    I do not have a whole lot more to say. I will let Senator 
Portman do the introduction, but we will first turn it over to 
Senator McCaskill for her opening statement.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Chairman Johnson, and 
welcome, Ms. Duke. I always like it when a valuable public 
servant returns, and it is one of the things, I think, that is 
most frustrating about the current political climate, that 
there are too many people out there giving the impression that 
everybody who works in government is somehow lazy or corrupt or 
not dedicated. And, clearly, you have made a choice which is 
not based on finances to come back to this work, and I am very 
appreciative of that. And I think the American people should 
be, too.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 34.
---------------------------------------------------------------------------
    As you know from your many years at the Department of 
Homeland Security, your role is going to be an incredibly 
important one. While the Secretary has to look at the big 
picture, you, in fact, are going to be charged with making the 
trains run on time and managing the day-to-day operations of 
the Department.
    When Secretary Kelly's nomination was in front of this 
Committee, I told him he was going to need a top-notch Deputy 
for Management. I am pleased to see that he has, in fact, 
chosen someone with significant managerial experience, but 
someone also who has shown a respect for taxpayer dollars.
    Since the nomination, my staff and I have heard from many 
DHS former employees and officials about your strong 
qualifications for this position. It includes a formal 
endorsement signed by the previous five Deputy Secretaries of 
Homeland Security attesting to your integrity and skill. I have 
been glad to hear from each of these endorsements because you 
face a formidable task.
    The Department of Homeland Security is the third largest 
Federal agency in this country with a $46 billion budget. It is 
charged with some of the most important duties in our 
government such as overseeing cybersecurity, immigration, 
homeland defense, and emergency management. It is also an 
agency that has faced persistent challenges of unity of effort, 
acquisitions, and personnel.
    As you have acknowledged, DHS continues to struggle with 
cohesion and mission among its many components. Many of its 
acquisition programs have been plagued by backlogs, delays, and 
budget shortfalls. In terms of employee morale, the Department 
is consistently ranked as one of the worst places to work in 
the Federal Government.
    Gratefully, the Department has made strides in recent years 
on all of these fronts--procurement, acquisitions, jointness, 
and morale. I know you played a role in many of those efforts 
in your time at the Department. If you are confirmed, it will 
be of the utmost importance that you continue pushing these 
approaches because recent improvements cannot be allowed to 
roll back.
    As the Chief Operating Officer (COO) of this agency, I 
expect that you will always approach new and existing programs 
with a critical eye on how they can effectively achieve their 
missions and more efficiently spend taxpayer dollars. As the 
Department continues to be thrust into the spotlight and 
entrusted with some of the highest priorities of this 
Administration, the job of Deputy Secretary in maintaining high 
operational standards, and particularly acquisition standards, 
in this evolving environment will be difficult.
    I was pleased to see that you have made a strong written 
commitment to responding to requests for information from any 
Member of this Committee, and I underline ``any'' Member of 
this Committee. So far, the Department of Homeland Security has 
done a very poor job of responding to such requests. Since 
becoming Ranking Member of this Committee, I have sent a number 
of requests for information in order to uphold my duty to 
oversee the agency and its actions. But DHS is failing to 
uphold its duty to respond to these requests.
    So far, I have outstanding requests about the 
implementation and details of President Trump's numerous 
Executive Orders (EO), requests about how the Department is 
going to respond to the Government Accountability Office (GAO) 
reports and recommendations regarding whistleblower protections 
and the acquisition of the border wall, and even a request for 
two statutorily mandated cybersecurity reports to Congress that 
were due over a month ago. In addition, this complete lack of 
transparency escalated to the point where the U.S. Immigration 
and Customs Enforcement (ICE) refused my invitation to appear 
at a hearing last week. If you are truly committed to 
transparency, I hope you will agree with me that this is 
absolutely unacceptable.
    When Secretary Kelly came in front of this Committee for 
his nomination, he made similar commitments to be responsive to 
Congress. But as evidenced by my outstanding requests for 
information, he has yet to keep his commitment.
    So today I am going to need assurances from you that, if 
you are confirmed, you will use your managerial duty in that 
role to ensure that this crucial aspect of responding to 
oversight of this Committee is no longer overlooked and that 
requests for transparency from Congress are important to the 
operation of your public agency and, therefore, in turn the 
American people and taxpayers will be treated with respect.
    I thank you for being here today, and I look forward to 
your testimony.
    Chairman Johnson. Thank you, Senator McCaskill.
    I would ask unanimous consent to enter the letter that you 
mentioned, written to us by James Loy, Michael Jackson, Paul 
Schneider, Jane Lute, and Alejandro Mayorkas in support of Ms. 
Duke's confirmation, into the record,\1\ as well as my opening 
statement.\2\
---------------------------------------------------------------------------
    \1\ The letter of support referenced by Senator McCaskill appears 
in the Appendix on page 117.
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    I will say just in terms of oversight that this Committee 
is dedicated to oversight over the Department. I think our 
first order of business, though, is to make sure that we staff 
and confirm positions like the Deputy Secretary, and certainly 
give you an opportunity to get into your position, enact your 
policies, give them time to actually work so we can start 
assessing them. But as Senator McCaskill did note, there are a 
number of reports that are due, and that is going to be kind of 
a catch-up process for you. But this Committee will be 
dedicated to working very closely with you to make sure that 
you succeed in your mission, but we will provide the necessary 
oversight at the appropriate time.
    With that, I would like to call on Senator Rob Portman, who 
would like to introduce Ms. Duke.

OPENING STATEMENT OF THE HONORABLE ROB PORTMAN, A UNITED STATES 
                 SENATOR FROM THE STATE OF OHIO

    Senator Portman. Great. Thank you, Mr. Chairman. I 
appreciate the opportunity to do so, and let me say first that 
I agree with both of you on the importance of this position at 
a critical time at the Department of Homeland Security, and, 
therefore, it is my privilege to be here to introduce Elaine 
Duke. We need her. She is the nominee for Deputy Secretary, a 
key management role, as has been discussed, and I believe 
General Kelly and the men and women at the Department of 
Homeland Security and our country, in fact, are really 
fortunate that she is willing to step forward and serve again. 
She has experience, she has a great perspective, she has 
integrity, and I think that will serve her and the Department 
well.
    We are proud to claim her as an Ohio native. She grew up in 
North Olmsted in the Cleveland area. Her dad, Frank Costanzo, 
is a first-generation American, still a very proud Cleveland 
resident. I have known Elaine's uncle for over 25 years. She 
indicated to me this morning she hoped that he had not shared 
with me any of her teenage stories, and he has not. He has only 
shared good things, and he is a very proud uncle as well as a 
good friend and neighbor of mine.
    The pride in Elaine's accomplishments, in fact, run deep 
throughout her entire family. They are rooting for her today. 
She has a very distinguished career in public service. As you 
know, she started her career as a GS-7 contract specialist for 
the U.S. Air Force (USAF). Over the next 28 years, she assumed 
roles of increasing responsibility in the Air Force, the Navy, 
the Federal Railroad Administration, the Smithsonian, and, 
finally the Department of Homeland Security, where in 2008 she 
was confirmed by the Senate to serve as Under Secretary for 
Management.
    In this final role, she was a key member of the DHS 
leadership team for both Secretaries Chertoff and Napolitano, 
and through this professional journey, she has established 
herself as a true expert on some of the tough issues that the 
Department faces, including contracting, acquisition, property 
management, organization change, human resources (HR), as the 
Chairman and Ranking Member have said, all of extreme 
importance to DHS right now.
    As Members of this Committee know well, now over 14 years 
after the establishment of the Department of Homeland Security, 
there are significant management challenges that remain. 
Integrating the various cultures and processes and systems of 
22 components of the Department continues. Frankly, in my view, 
it has been more difficult than I had hoped it would be. We 
needed, in my view, to have consolidation of these 
responsibilities to better protect our country, but we still 
have a long way to go in ensuring all these cultures come 
together in an appropriate way.
    So establishing adequate headquarters-level support, 
oversight of Department functions, and, in particular, major 
acquisition programs is still a work in progress. Recruiting, 
retaining, and leading the over 200,000 Department employees is 
an evolving challenge. I think Ms. Duke is well qualified to 
help Secretary Kelly tackle these challenges, and, again, I 
trust that he will rely on her significantly for a number of 
his most critical management initiatives in the Department.
    I am sure we will have a very fruitful discussion with the 
nominee today, and I plan to ask her a few tough questions 
myself. But I hope we can then move forward after a 
constructive dialogue and get her to the floor for a vote and 
get her in place. We need her, and we need her now at the 
Department of Homeland Security.
    Thank you again for allowing me to say a few words this 
morning.
    Chairman Johnson. Thank you, Senator Portman. I am hoping 
you are not going to delve into her teenage years. [Laughter.]
    It is the tradition of this Committee to swear in 
witnesses, so if you will rise and raise your right hand. Do 
you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Duke. I do.
    Chairman Johnson. Please be seated.
    Ms. Elaine Duke has had a career in government spanning 
nearly 30 years, beginning as a contracting officer at the U.S. 
Air Force and culminating with her Senate confirmation as the 
Under Secretary for Management of the Department of Homeland 
Security on June 27, 2008. She remained in that position under 
President Obama and ultimately retired in 2010, but has agreed 
to answer the call to return to the Department 7 years later.
    Ms. Duke holds a B.S. degree in business management from 
Southern New Hampshire University and an M.B.A. from Chaminade 
University.
    Ms. Duke, I am grateful for your commitment to the 
Department of Homeland Security and your willingness to serve. 
I yield the floor.

   TESTIMONY OF THE HONORABLE ELAINE C. DUKE\1\ TO BE DEPUTY 
        SECRETARY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Mr. Chairman, Ranking Member McCaskill, and 
distinguished Senators of this Committee, thank you for holding 
this hearing to consider my nomination to become Deputy 
Secretary of Homeland Security, and thank you, Senator Portman, 
for the kind introduction. My Midwestern upbringing really 
shaped my values and made me the person I am today, and I am 
proud to call myself a Buckeye.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duke appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    First, I would like to extend my thanks to President Trump 
and Secretary Kelly for the great trust they have placed in my 
abilities to manage the Department's daily operations. I am 
very honored to be nominated for this position.
    I would like to thank the former Deputy Secretaries of 
Homeland Security for their encouragement throughout this 
process. I draw strength and inspiration from their support and 
counsel.
    I would like to introduce my family who is here with me 
today: my husband, Harold; my youngest son, Jason; and my 
youngest sister, Cynthia. I would like to specifically 
recognize my husband for supporting my decision to return back 
to service. It is a sacrifice for our lifestyle, and I am 
grateful for his unwavering support and his service to our 
country by virtue of my service. Also, my son Brian, who is not 
with me here today, has provided me encouragement and support 
throughout this process.
    And, finally, I would like to recognize my father, Frank 
Costanzo. He cannot be here physically with me today, but I 
know he is cheering me on, just as he did when I was 
interviewed for my first entry-level civil service position 35 
years ago.
    It would be an honor to serve as Secretary Kelly's Deputy. 
I would welcome the privilege of supporting him as he leads the 
Department in securing this homeland. When I retired from civil 
service just shy of 7 years ago, I thought I had retired 
permanently. However, when I received the call, like many of 
you, I immediately knew I must say yes.
    More than 15 years after 9/11, this country continues to 
face many challenges in homeland security. But Americans must 
be able to go about their daily lives free from fear and secure 
in the knowledge that they and their loved ones may walk down 
the street or go to the mall in peace. DHS is addressing this 
threat and ensuring the homeland is protected, and if 
confirmed, I look forward to joining that continuing fight.
    In the last 8 years of my 28 years of public service, I 
served at the DHS. I understand the complex challenges of DHS' 
missions; the complex oversight; the diverse concerns of its 
many missions; the urgency of its work; and the complexity of 
running such a large Department. But I also know the 
Department's employees are the most dedicated and passionate 
civil servants with whom I have ever had the pleasure of 
working. If confirmed, I pledge to lead them in producing 
results for our beloved Nation.
    Additionally, if confirmed, I promise to lead DHS in 
enforcing the law with respect and integrity. I will be honest 
in my assessments and recommendations, and relentless in 
pursuing excellence. My such commitments are critical at this 
juncture in homeland security.
    I will do everything in my power to preserve our liberty, 
enforce our laws, and protect our citizens. I recognize the 
many challenges facing DHS, and if confirmed, I look forward to 
partnering with all of you in protecting the homeland.
    I fully understand the role of the Congress in its 
oversight and support to the Department. Throughout my career 
in government, I have always strived to work in a collaborative 
manner with Members of Congress and their staff and other 
oversight agencies. I will continue this approach with 
Secretary Kelly.
    I thank you for this opportunity. I am happy to answer your 
questions at this time.
    Chairman Johnson. Thank you, Ms. Duke. I have three 
baseline questions.
    First of all, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Duke. No, Mr. Chairman.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Duke. No.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Duke. I do.
    Chairman Johnson. Thank you. Again, Ms. Duke, I appreciate 
your willingness to serve. Having served, having gone back in 
the private sector, running a successful consulting business on 
the outside, you have certainly made some points in your 
opening statement, but I just want to ask kind of from the 
heart: Why are you willing to do this again? You know this is 
not going to be an easy job. Again, I appreciate the sacrifice 
that your husband and your family are going to incur as well. 
This is a 24/7 job. Can you just explain in your own words why?
    Ms. Duke. I think I watched from election day through 
December the unrest in the country, the protests, the concern 
over our future, and I feel like through the request to serve, 
I have a unique opportunity to make a difference in this really 
challenging time. I believe that Secretary Kelly and I can work 
together not only in enforcing the laws and the policies of 
this Administration, but doing it in a way that demonstrates 
integrity and compassion, and I feel like I can do good in 
moving this country forward, and that I need to accept that 
responsibility.
    Chairman Johnson. Can you describe to me, just bullet 
point, and it does not have to be three, but your top 
priorities, maybe top three, if you have them? What is the 
first thing you are going to address?
    Ms. Duke. The first thing I am going to address is the men 
and women of Homeland Security and thank them for their support 
through the process. In terms of within the Department, the 
first thing I would address is bringing the components together 
and having our own cabinet, if you will, and starting to lead 
in the joint operations that we need to better secure our 
homeland.
    Chairman Johnson. You were obviously there before, and the 
Department has historically had some of the lowest morale. Do 
you have an explanation for that? And, again, I appreciate the 
fact that your first task then is to go and thank them. That 
will certainly boost morale. But do you have an explanation 
yourself, having been there, why that is?
    Ms. Duke. I have two major explanations. One is they have 
not been communicated with completely and respected always 
within and outside. I think that what I would try to do is make 
them understand the value of the mission and the context of the 
mission so they understand how important it is, they understand 
the system they are working in and how much it is valued.
    I think also it is difficult because most of our people 
work in a very public situation, and so I would be working 
toward some of the areas to make the workforce more 
professional and more respected by the American people.
    Chairman Johnson. Having served in this Committee now for 6 
years, recognizing when the Department was set up it was a 
number of agencies, 22 agencies cobbled together, each has 
their own reporting requirements to different committees and 
subcommittees of Congress, and, quite honestly, I think it is 
difficult to even determine the number, but it is a lot.
    First of all, how did you deal with that in your previous 
service? And can you just kind of speak to how distracting that 
is to the men and women within the Department of Homeland 
Security in terms of keeping your eye and your concentration 
and your focus on your real mission of keeping the homeland 
safe and secure?
    Ms. Duke. Well, the way I dealt with it in my last service 
and will now is a mutual respect. We have three branches of 
government for a reason, and I respect your oversight role, and 
I will always treat it with that respect. It does become one of 
the nearly full-time jobs of leaders to manage that so that the 
workforce can actually do their job.
    One of the ways I would like to do it--and I offered this 
to most of you in my initial meetings--is to work with you in a 
collaborative and open way, so the need to have formal hearings 
is diminished and we can work out issues in other ways and move 
the ball forward.
    Chairman Johnson. One thing that has frustrated me, coming 
from a manufacturing background, I need information. To solve 
any problem, you need information. This has just been 
unbelievably frustrating, my inability to get decent 
information. One thing I have noticed in President Trump's 
Executive Orders, almost to an order there is always some 
requirement in there for more information, better information 
to move forward and make a decision.
    First of all, do you agree with me in that assessment in 
terms of the lack of relevant information, consistent 
information? First answer that question.
    Ms. Duke. I do agree with you, yes.
    Chairman Johnson. So can you also commit then to helping 
and working with us to develop the kind of metrics, the kind of 
information we really need so we can enact good policy?
    Ms. Duke. Absolutely. We need better data, more accurate 
data to make the best decisions for our country.
    Chairman Johnson. OK. With that, I will turn it over to 
Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    From our visit, I understand that you have the most 
important asset in your life in my State, a granddaughter.
    Ms. Duke. Yes.
    Senator McCaskill. So I am pleased to hear that she lives 
in Cass County, in Raymore, just south of Kansas City, and we 
will be happy to welcome you to the State as frequently as you 
need to come to get the granddaughter fix, which I have a 
feeling you will need in the coming days because of the stress 
that you are going to endure.
    Ms. Duke, I assume, because of your background in 
acquisition, you believe that any large capital expenditure 
should have a cost-benefit analysis.
    Ms. Duke. Yes, I do.
    Senator McCaskill. And you are aware, of course, that there 
has been no cost-benefit analysis performed on this wall.
    Ms. Duke. Yes, and I understand that U.S. Customs and 
Border Protection (CBP) is preparing that.
    Senator McCaskill. OK. And there has been no money 
appropriated for this wall, correct?
    Ms. Duke. There is currently no money other than existing 
money in the CBP border security fencing, infrastructure and 
technology (BISFIT) account.
    Senator McCaskill. But, actually, they have to allow that 
to be reprogrammed, correct?
    Ms. Duke. Yes, that is correct.
    Senator McCaskill. And it is my understanding that in order 
to keep Congressional oversight and Congressional power in 
check, which I believe all the Members of Congress want as it 
relates to Executive Orders, there has to be a sign-off by the 
Ranking and Chair of the Appropriations Subcommittee for 
reprogramming those appropriations.
    Ms. Duke. Yes, that is my understanding.
    Senator McCaskill. And are you aware that has not occurred?
    Ms. Duke. I am aware.
    Senator McCaskill. OK. So we have no sign-off for 
reprogramming whatsoever on this wall, and we have no cost-
benefit analysis for the wall.
    Now, let me go further. Part of that analysis must be that 
when you spend money in one area and take it away from another 
area, you have to analyze the threat risk. And we spend a lot 
of time on threat risk at the Department of Homeland Security.
    Ms. Duke. Yes.
    Senator McCaskill. In fact, some of the cuts that are being 
proposed to biodefense I could not agree with more, because 
there was a whole lot of money wasted there in light of the 
threats that face our country, a lot of money on something that 
was not really a threat when we had real threats that were not 
being addressed.
    So are you aware of any analysis that has been done that 
would say that it makes more sense to build a wall places along 
the border where the Border Patrol even says they do not want 
it or need it, and at the same time take a cut to the Coast 
Guard that would seriously impair the ability for us to 
intercept heroin that is the most deadly problem facing our 
country?
    Ms. Duke. That analysis is in progress, to my 
understanding, and I can commit to you, Senator, that, if 
confirmed, I would be using that analysis in moving forward.
    Senator McCaskill. The same thing would apply to the 
Transportation Security Administration (TSA) cuts that are 
being proposed to pay for this wall where no one has said that 
that wall is actually going to make us demonstrably safer or 
secure? The TSA cuts, the Visible Intermodal Prevention and 
Response (VIPR) teams are being proposed to be cut, and, of 
course, the VIPR teams are the ones that we rely on to keep our 
airports safe in light of the tragedies that have occurred 
around the world. Has there been any analysis that the VIPR 
teams are less important than part of the wall in places where 
there really is no utilitarian reason for a wall because of the 
geography of the border?
    Ms. Duke. I have not been involved in those discussions, 
but if confirmed, I would be looking at the budget, and that 
would be a major part of my role as the Chief Operating 
Officer.
    Senator McCaskill. So I know you are aware that good 
acquisition planning requires not only a focus on the present 
contract but lifecycle. I know you are very familiar with this 
because of your work in acquisition. Are you aware of any 
lifecycle cost analysis that has been conducted prior to the 
pre-solicitation notice that has been sent out on the border 
wall prototype acquisition?
    Ms. Duke. My understanding is that that is in process, but 
I do not know if it is completed.
    Senator McCaskill. Do you believe that it is appropriate--
if, in fact, the total cost is above $300 million, which 
qualifies as a Level 1 acquisition--I think we can all agree 
this is going to be more than $300 million--why would you be 
conducting a request for information for long-term strategy for 
the border wall when you have not had this kind of lifecycle 
analysis?
    Ms. Duke. A request for information will give us industry's 
input into that lifecycle analysis, what is the state-of-the-
art and what industry believes might be reasonable, and that 
would be an input to the lifecycle analysis.
    Senator McCaskill. Do you think it is appropriate to 
conduct acquisition and requests for information at the same 
time? Do you think that is appropriate? Or is that not good 
government?
    Ms. Duke. I think that----
    Senator McCaskill. That is certainly not what a business 
would do, I can assure you.
    Ms. Duke. I think that we are taking a segmented approach 
where we do an instant portion of border security and then look 
in the longer term is something that tends to deliver better 
results.
    Senator McCaskill. What about the costs of land acquisition 
and litigation? I was on the border a few weeks ago, and I 
noticed this incredible waste of resources because there are 
these big gaps in the existing wall where there is no gate. And 
there is a Border Patrol agent that sits there in a truck 24/7 
at every opening. Very expensive in terms of lifecycle costs. 
But that is because of the litigation that has been going for a 
decade over land acquisition.
    Now, has anybody factored in any costs, have you see any 
analysis ever done? Because I do not believe in looking at the 
numbers I have looked at they have ever included land 
acquisition, the cost of eminent domain, the government seizing 
some of the most valuable farmland in Texas, I have never seen 
a cost analysis of that. Are you aware if any exists?
    Ms. Duke. I do not know if any exists, but I do agree with 
you that that is an important concern, and we expect that to be 
a major issue if additional wall is constructed.
    Senator McCaskill. Another thing that bugs me is the 
government never does pen and pencil on legal costs because 
they are just government lawyers. I would ask you to commit to 
make an analysis of what the legal costs have been surrounding 
these half a dozen gates I have seen. Forget about the Border 
Patrol agent that sits there around the clock, but what about 
the legal cost and the delays and all the costs associated with 
that? I would like to see an analysis of what that time is 
costing our government in terms of the legal analysis, because 
certainly a business would also do that analysis.
    Ms. Duke. I can commit, Senator, to using that going 
forward. I do not know if the data exists to go retroactively, 
but I believe that is a valid cost in the cost estimate going 
forward.
    Senator McCaskill. I am going to be interested to see if in 
the original 600-and-some miles we built, if there was ever any 
pen and pencil about land acquisition costs and litigation. If 
there was not, then certainly that is a flaw that we would 
expect to be corrected.
    I have many more questions. I think you have a very 
daunting job in front of you, and I look forward to a very 
cooperative relationship in terms of being able to get 
information and being able to perform the oversight by this 
Committee that I have been honored be a part of, regardless of 
which party holds the Presidency. Thank you.
    Ms. Duke. Thank you, Senator.
    Chairman Johnson. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Again, welcome to the Committee. I said I was going to ask 
you some tough questions. Let me just start by saying I do 
think you are the right person at the right time for a very 
difficult assignment, and I notice that the Secretary has been 
talking about unity of effort, and my sense is that from your 
background that is exactly how you will tackle this 
responsibility.
    Let me ask you about a couple specific things, if I could, 
that have come up recently. One is the role of the Department 
in these increasing incidents of threats and attacks on Jewish 
community centers, on Jewish day schools, on cemeteries. And, 
by the way, this is not just with regard to the Jewish 
community. Yesterday there was a bomb threat with regard to the 
Islamic community. Right outside of my home town of Cincinnati, 
the mosque actually received a bomb threat, which has happened 
over time, including after 9/11. And my sense is that there is 
more the Department of Homeland Security can do.
    Over the last week or so, Senator Peters, who is here on 
our panel--he was here a moment ago and I am sure he will come 
back--we drafted a letter, and it was a letter to you, to your 
boss--it was also to the Federal Bureau of Investigation (FBI) 
and also to the Justice Department (DOJ)--making sure that you 
are aware of what is going on around the country and asking for 
your additional help. By the end of that process of asking 
colleagues if they wanted to join us, every single Member of 
this Committee signed that letter. In fact, every single Member 
of the Senate signed that letter. That never happens. A hundred 
Senators signed the letter. And what it said is, we need help, 
and we need you to understand the importance of this.
    I met with the Jewish community in Cincinnati, Columbus, 
and Cleveland last week in Columbus, and they gave me a lot of 
specific ideas that they are looking for. I know Secretary 
Kelly vowed to support the communities last week. He talked 
about the Department's Protective Security Advisers (PSA) 
program. This is welcome, but I think there is more to do. One 
is these nonprofit security grants and that program, so I would 
like you to address that at the end of my question to see 
whether that is being properly resourced and what you know 
about that program from your previous service.
    I think there is a real need for better information sharing 
from what I hear from the communities back home, specifically 
with regard to the fusion centers and getting that information 
down to the local communities so local law enforcement knows 
what the threat information is, what the trends are. Opening up 
that flow back to the local community I think is really 
important, and it does not always happen.
    Better training is another thing. There is this group 
called the ``National Protection and Programs Directorate 
(NPPD)'' that I know deals with a lot of this.
    So what I am asking you today is to make a commitment to us 
that you will take a fresh look at this area, given this 
increasing evidence that there is more of a threat out there 
and actual attacks. If you look at the desecration of the 
cemeteries, including one in the home State of our Ranking 
Member I know she has spoken out on, and my sense is, again, 
that all of my colleagues are hearing from their constituents 
back home about this.
    So if you could give me that commitment today that you will 
take a fresh look at this, along with General Kelly, and get 
back to us on what you think the Department can do more 
effectively.
    Ms. Duke. I give you my commitment. Crimes based on 
religion are against our Constitution and cannot be tolerated.
    My knowledge of the specific grant program is limited. I 
will get back to you on that. I know the benefit of working 
with the Governors and the State and local and getting 
information from them for boots on the ground and, again, 
through the fusion centers, getting operational intelligence 
back out to them. And I think info sharing, going back to the 
data issue, and getting things timely and complete is very 
important, and I expect additional work on the fusion centers 
and enhancing their performance to be part of our leadership.
    Senator Portman. Thank you. The second question I have is 
about this heroin epidemic, and the Chair and Ranking Member 
have been very involved in this and mentioned it today. But we 
have a situation now where more and more families are facing 
this challenge of addiction. We have a new drug called 
``fentanyl,'' which is a synthetic heroin, as you know, coming 
in from overseas. Fentanyl, carfentanyl, U4, it comes by 
various names.
    To give you an example of what is happening in my home 
State, between 2014 and 2015, we believe there was a doubling 
of overdoses and deaths related to fentanyl. If you look at 
February of this year, just last month, the shortest month of 
the year, we had the most deaths in your home town of 
Cleveland, Ohio, that we have had from overdoses. Most of those 
overdoses were because of fentanyl, often being mixed with 
heroin. I am told by law enforcement back home that the 
fentanyl is now being sprinkled on marijuana. This is 
incredibly deadly stuff, 30 to 50 times more powerful than 
heroin, and it is killing people. And unlike heroin, which does 
come over the Southern Border, as was talked 
about--and one reason we need a secure border to be able to 
stop more of that and increase the price for that that does get 
through, because that would help. But this fentanyl comes by 
the U.S. mail system, and there was a recent study done by the 
U.S.-China Commission saying that it is being produced 
primarily in China, sometimes in India, sometimes other 
countries, sent to the United States by the U.S. mail. And the 
reason the traffickers use the U.S. mail system is because if 
they send it through another means, particularly, the United 
Parcel Service (UPS) or Federal Express (FedEx), they have to 
provide electronic data up front where it is from, what is in 
it, where it is going. But the mail system, they do not have to 
provide that, so it is the preferred way of sending this poison 
into our communities.
    I would like your commitment today that you will work with 
us on legislation called the Synthetics Trafficking and 
Overdose Prevention (STOP) Act that most Members of this 
Committee have been involved with, some have been cosponsors 
of. It is bipartisan legislation. Amy Klobuchar from Minnesota 
and I introduced it again recently, and it basically just says 
with regard to the mail system, give law enforcement the tool 
to require that electronic data so that they can target these 
packages. They cannot look at millions, but they can look at 
hundreds. And the Customs and Border Protection people I have 
talked to privately say absolutely we need this tool. Local law 
enforcement is desperate to have it.
    So could you give us a commitment today that you will work 
with this Committee to ensure that we can get this legislation 
moving and begin to stop some of this poison from coming into 
our communities?
    Ms. Duke. I give you my commitment that we understand that 
the drug problem is--it is bipartisan. I heard from every 
Member of this Committee as I met with them, and I commit to 
working forward to securing against that threat to our people, 
yes.
    Senator Portman. Thank you. And, again, this is one that is 
not going to be the silver bullet to stop drug abuse in our 
country, but it will stop some of this poison from coming in, 
which is the new major threat we are seeing, and it will 
increase the price, which is one of the issues that fentanyl 
unbelievably is now less expensive than some of these other 
drugs that are opioids that are causing so much devastation in 
our communities and the breakup of families and crime and other 
issues.
    Finally, I have just got a few seconds left, but with 
regard to cybersecurity, I just want to echo what my colleagues 
have said already about the importance of that and your new 
role. We have tried very hard to give you the tools to be able 
to get better people in-house, more flexibility in hiring. And 
if you would make a commitment to us today to look into that 
issue and tell us what you need that you are not getting to be 
able to get the best people at DHS and other departments that 
are working with you all to push back on the cybersecurity 
threat.
    Ms. Duke. Yes, we have what we need legislatively. We need 
to move forward, if confirmed, with the accepted workforce, and 
that will go a long way to help with the cyber issue.
    Senator Portman. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman, and good morning, 
Ms. Duke. Thank you for meeting with me in my office. Thank you 
for your long career in public service, and I will give a 
special shout-out. Anybody who has studied in New Hampshire is 
good in my book. [Laughter.]
    So thank you very much for being here.
    I want to just start by echoing what Senator Portman was 
just alluding to. I am a cosponsor on the STOP Act. My State, 
as his, has been just devastated by this epidemic, and in 
particular now, the use and importation of fentanyl. And what 
we are learning among other things is how creative the drug 
cartels are. This is moneymaking business for them. They do not 
care about people's lives. And we are going to need to work 
together at all levels of government to stop it, both 
addressing the supply as well as the demand side.
    So I am grateful for the discussion we had about it. I am 
grateful for all of the Members of this Committee who are 
committed to helping stop this epidemic. And I was very glad to 
hear you just now talk about the importance of information 
sharing. As a former Governor, I know the importance of sharing 
Federal, State, and local, especially around this issue. So 
thank you for your commitment and understanding of that.
    We spoke briefly in my office about your commitment--and 
you mentioned in your testimony and your policy questionnaire--
to a threat-based approach to decisionmaking, and I am 
wondering if you could just briefly talk a little bit more 
about what that means to you and what you think the Department 
needs to do.
    Ms. Duke. Yes, Senator. What that means to me is that we 
have a limited number of resources in the United States, and 
when we are making decisions with homeland security resources, 
we must spend every incremental dollar on the solution that is 
going to buy down the most risk. And these are important 
decisions both in the budget cycle, in moving personnel 
resources, and going forward, and that requires good data. It 
changes over time, and we just need to be on top of that.
    Senator Hassan. OK. Well, thank you.
    So I want to then, following up on that, talk a little bit 
about one of the things that the Ranking Member also mentioned 
concerning TSA cuts. Last September, the Director of the 
National Counterterrorism Center (NCTC), Nick Rasmussen, 
testified before this Committee that--and these are his words--
``terrorists remain focused on aviation targets because they 
recognize the economic damage that may result from even 
unsuccessful attempts to down aircraft or against airline 
terminals, as well as the high loss of life and the attention 
media devotes to these attacks.''
    So the report that we saw yesterday in Politico indicated 
that the Office of Management and Budget (OMB) is considering 
making a number of cuts to the Department of Homeland Security 
in order to pay for the President's border wall and to hire 
more border and immigration officers. Among the cuts was an 11-
percent reduction in TSA's budget, or a little under $1 
billion. That is truly a devastating cut, and it means less 
security against aviation threats from al-Qaeda and Islamic 
State of Iraq and Syria (ISIS).
    So do you support cutting aviation security to pay for the 
President's border wall?
    Ms. Duke. I commit to you that I will look at the budget. 
At DHS, every mission is important and really underresourced at 
this critical time, Secret Service, the Coast Guard with its 
human trafficking and drug interdiction roles. So I commit that 
I will look at the budget very carefully, if confirmed.
    Senator Hassan. Well, I thank you for that commitment. I 
would just suggest that if we are truly committed to threat-
based management at DHS and if the Director of the National 
Counterterrorism Center says that terrorists want to attack our 
aviation system, that the suggestion that we would cut $1 
billion from aviation security is very concerning. And so I 
hope you will take a close look at it and that you will be able 
to come back to this Committee and commit to fighting cuts to 
TSA.
    Ms. Duke. I will, and I will also use that intelligence 
from that organization and others.
    Senator Hassan. Thank you.
    The other thing I wanted to do was follow up a little bit 
on my colleagues' questions and concerns around the opioid 
epidemic. We have talked about how devastating it is. We know 
that the flow of narcotics across the Southern Border 
absolutely contributes to the epidemic. But it is not the only 
route, to Senator Portman's point, through which drugs get into 
our country.
    The security of our Northern Border lacks the resources and 
attention paid to our Southern Border, while fentanyl, a key 
precursor drug, is being shipped into the country from China in 
particular, and it is poisoning our young people and killing 
them. Additionally, our maritime borders stretch thousands of 
miles and have been a popular way for drug smugglers for years. 
And as mentioned by the Ranking Member, the Coast Guard plays a 
key role in interdicting maritime drug shipments.
    So, again, going back to the Politico article yesterday 
which reported that OMB was considering cutting Coast Guard's 
budget by 14 percent, or about $1.5 billion--and I would 
suggest that 
the U.S. Coast Guard (USCG) is already feeling pretty 
underresourced--again, this is a cut being suggested by OMB in 
order to pay for the President's wall.
    I am having a hard time understanding the logic of a move 
like this. If we build a wall along the Southern Border and gut 
the Coast Guard in the process, what we have seen from these 
drug cartels is that they are creative, and I just think that 
incentivizes the cartels to smuggle more drugs across our 
maritime boundaries.
    So I am really looking for you to be able to outline steps 
to ensure that DHS employs a comprehensive approach to battling 
narcotics trafficking, stopping the opioid epidemic, and do not 
just focus--the Southern Border security is incredibly 
important, but, we have to be smart about this, and we have to 
use what you called this threat-based assessment process. And I 
am really concerned that, from what I am reading, the 
Administration is not following that path. So I am just hoping 
I can get a commitment from you to really help do this in a 
strategic way.
    Ms. Duke. I will. I know you recognize also that this is 
very much an interagency function, but DHS does play a part of 
this. I committed to Senator Heitkamp to visit the Northern 
Border to learn more about its geography and the threat there. 
And you are right, the Coast Guard does play an important 
mission in drug interdiction also, in addition to the land. So 
you have my commitment.
    Senator Hassan. Well, and I thank you. And the last thing I 
would say as I am running out of time is just the other thing 
that we should all be thinking about, law enforcement has 
spoken very compellingly about the fact that we cannot arrest 
our way out of this opioid epidemic, that it is going to take a 
combination of prevention, treatment, as well as law 
enforcement. So I look forward to having further conversations 
with you about how DHS can partner in that effort, too.
    Ms. Duke. Thank you.
    Senator Hassan. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. Mr. Chairman, on the topic of 
immigration, I request unanimous consent that two items be 
entered into the record. One is a transcript from a hearing 
that I held in Los Angeles, a forum on the topic of 
immigration.\1\ The second is a letter from the Coalition for 
Humane Immigrant Rights of Los Angeles, discussing how the 
President's Executive action has instilled fear in immigrant 
communities.\2\
---------------------------------------------------------------------------
    \1\ Transcript submitted by Senator Harris appears in the Appendix 
on page 120.
    \2\ Letter submitted by Senator Harris appears in the Appendix on 
page 200.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Harris. Thank you.
    Ms. Duke, thank you for your many years of service, and 
thank you to your family for allowing you to reenter. I have 
several questions of you.
    You have in your questionnaire and in your interviews 
resonated several points that you have made in terms of 
principles that you hold to be important, including that 
government has good relations with the people that we serve and 
that there is trust between government and the people that we 
serve. And your comments suggest to me that you also prioritize 
transparency and consistency in the way that we do our work as 
government officials. So I thank you for that.
    On that point, I will tell you based on the discussions 
that I have had, the forums I have held, many of my 
constituents need clarity on the decisions that have been made 
through the Executive Order and the memos that have been issued 
by the Department of Homeland Security, and so I have for you 
right now a poster that my staff has created of General Kelly's 
confirmation hearing. Can you see it from there? It is a bit 
small. But basically he talked about his highest priorities and 
mentioned that he would create priorities in terms of who would 
be deported and who would be the focus of U.S. Immigration and 
Customs Enforcement (ICE) and CBP.
    Then the memorandum from February 20th\3\ lists seven 
categories, and in those categories we see that we have: one, 
people who have been convicted of crimes; then it goes on to 
say people who have been charged but not been convicted or 
found to be guilty. It goes on to mention people who have 
committed acts which constitute a chargeable offense, and then 
other factors, including, 7, those that in the judgment of an 
immigration officer otherwise pose a risk to public safety or 
national security. You have said many times, including at least 
three times in this hearing, that you have limited resources--
we all do--and so we have to make priorities and triage in many 
situations.
---------------------------------------------------------------------------
    \3\ The memorandum referenced by Senator Harris appears in the 
Appendix on page 119.
---------------------------------------------------------------------------
    So will you tell me, please, of these seven categories, 
which you consider to be the most important with your limited 
resources?
    Ms. Duke. The most important is the people that have been 
criminal. It is subcategory 1.
    Senator Harris. OK. And where do you put in this hierarchy 
the third one, those who have committed acts which constitute, 
but obviously there has been no legal action, where would you 
put that in your list of priorities?
    Ms. Duke. I believe these are, if you will, loosely in 
descending order. I think the main effect of that memorandum is 
to not exempt any categories that currently are under the 
current law passed by Congress.
    Senator Harris. So it is your opinion that these are listed 
in descending order of priority?
    Ms. Duke. Yes.
    Senator Harris. OK. And will you issue a memo then to your 
Department, if confirmed, that that is exactly the case, that 
this is in descending order of priority?
    Ms. Duke. I think that----
    Senator Harris. Because there is no clarity right now in 
terms of----
    Ms. Duke. I can commit that----
    Senator Harris [continuing]. What the folks on the ground 
are supposed to do as their priority for who they will pick up, 
who they will detain.
    Ms. Duke. I will commit that if there is continued lack of 
clarity that we will have more clarity. I know that ICE was 
issuing a memo that is not issued yet, and I can work with you 
on making sure that has the clarity so that you can explain it 
to your constituents in a way and show them that that is the 
way it understands. But there is still the prioritization.
    Senator Harris. OK. And I will emphasize that it is most 
important to my constituents that the officials in the 
Department actually explain it to the troops on the ground.
    How would you then direct an officer in the field to assess 
number 3, which is someone, again, who may have committed an 
act which constitutes a chargeable offense? How would you train 
and direct an officer on the ground about number 7, which is in 
the judgment of that officer, an individual poses a risk to 
public safety or national security? How would you train on that 
point?
    Ms. Duke. Both number 3--number 3 also requires judgment, 
and all our law enforcement officials in this country, whether 
they are Federal or State or local, have to have judgment. They 
have the Federal law enforcement training where they learn 
that. They both practice law enforcement. And in the Federal--
--
    Senator Harris. But they need to be trained on specific 
factors that they----
    Ms. Duke. Yes.
    Senator Harris [continuing]. Should consider, and that is 
the way that we actually evaluate whether they are exercising 
good judgment or not. Would you agree?
    Ms. Duke. Yes.
    Senator Harris. Do you know if that training has been 
planned for those officers so that we can ensure that they are, 
in fact, exercising good judgment?
    Ms. Duke. Yes, that is part of their law enforcement 
training.
    Senator Harris. Has that been issued since February 20th as 
it relates to these seven factors?
    Ms. Duke. I do not know at this time. I can get back to you 
on whether there has been incorporation into the training 
specifically.
    Senator Harris. Please do.
    Then on February 17th, there was a memo from Acting CBP 
Commissioner Kevin McAleenan which indicates that to meet the 
hiring goals of the Executive Order, there would be 15,000 new 
officers, that we would have to lower CBP hiring standards. And 
as you probably know, during a hiring surge at the Department 
between 2006 and 2012, there were a lot of unintended 
consequences which required then that Congress in 2010 mandate 
that the CBP use polygraph testing to blunt the infiltration of 
the agency by drug cartels. However, it is my understanding 
that now as part of the need to hire 15,000 new officers, there 
is a suggestion that the polygraph testing would no longer 
occur. Do you agree with that?
    Ms. Duke. We will not lower standards to do that.
    Senator Harris. What about the polygraph testing?
    Ms. Duke. I am not familiar with it. I know there was 
discussion over whether it is necessary or not.
    Senator Harris. Do you believe the polygraph testing should 
remain intact in order to ensure that we keep the hiring 
standards so that we can ensure that those officers exercise 
good judgment?
    Ms. Duke. I do not have enough data, to be honest, Senator, 
to comment on that, but I will look into it, if confirmed, 
immediately.
    Senator Harris. So in your many years of service with the 
Department, you do not have information about whether--the 
efficacy of a polygraph test and the hiring of these officers?
    Ms. Duke. Yes, I know that the polygraph has efficacy, but 
is there a degradation in workforce if it is eliminated, I do 
not have that data.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Ms. Duke appears in the Appendix 
on page 116.
---------------------------------------------------------------------------
    Senator Harris. OK. Thank you.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And it is great 
to see you again, and thank you for a lovely visit in my 
office.
    Since we had an opportunity to talk, there has been a 
number of things that have occurred within the Department of 
Homeland Security, but one thing that really caught my 
attention is the discussion of a policy that would, in fact, 
separate mothers from their children at the border.
    How much time have you spent in the triangle countries in 
Central America?
    Ms. Duke. Very little other than vacations. No official 
duty.
    Senator Heitkamp. Would you agree that the conditions on 
the ground in those countries are dire and dangerous for 
families?
    Ms. Duke. I have heard that, yes, from people I have met 
from those countries.
    Senator Heitkamp. In fact, we know that the murder rates 
per capita are the highest in these countries, especially El 
Salvador. Many of the people who are migrating, many of the 
people who are on the move are, in fact, escaping very 
desperate conditions, and it is not just economic migration. It 
is migration to get away from the terror.
    Obviously, there has been a United Nations (U.N.) project 
to take a look at refugeeing in place, whether it is in Costa 
Rica, Belize, southern Mexico, Nicaragua. There has been a lot 
of discussion about how we deal with the crisis in Central 
America, which obviously is having an effect. But how do we 
deal with the visual of a Border Patrol agent taking a baby 
away from a mother at the border?
    Ms. Duke. That is a bad visual. I think what we do is we go 
to two underlying areas. One is we have to separate adults from 
children potentially because of threats we have heard against 
children. And, also, we have to address the fact of how 
dangerous it is to illegally immigrate into the country. And I 
think that the reference you are making to separating mothers 
and children or adults and children was one thing that 
Secretary Kelly said is a possibility to help address this 
threat against children who are illegally migrating.
    Senator Heitkamp. So the strategy is not to figure out how 
through the State Department we can effectuate support for 
refugees in place, which would be my preference, that people 
stay in the community as we work with these countries to 
stabilize their economies and stabilize their security. So it 
is not our problem, and the solution is to take babies away 
from mothers. That is the best solution we have in the United 
States of America when dealing with this crisis?
    Ms. Duke. No. No, it is not. Absolutely, Secretary Kelly 
and I have had short discussions, but are committed to looking 
at both what we call the push effect and the pull effect. And 
the push effect would be the areas you are talking about, 
Senator, of fleeing violence; they are leaving for a reason. 
And we are committed with the other appropriate agencies to 
looking at both sides.
    Senator Heitkamp. Well, I can tell you that for every 
mother who would be seeing someone seeking asylum in this 
country, fleeing from rape, murder, and potential destruction 
of her family, it is not a very humanitarian way to deal with 
this crisis. I think there are other ways, and I think that the 
threat of taking mothers away from children may, in fact, 
provide a deterrence. I get that. But it does not solve the 
problem in our hemisphere, and if we do not deal with the 
problem in our hemisphere, we will continue to have disruption, 
and that disruption will continue to find a place for a 
criminal element in our country. I want to wage my strong 
opposition to taking babies away from their mothers.
    If we look at budget--and I have spent a lot of time on 
this on the border, probably more time than what I should given 
that I represent a State like North Dakota, but I can tell you 
from being down there, working with some of the most 
conservative ranchers you are going to find, they do not want 
this wall. You have opposition from people from whom you need 
support to build this wall. They have a lot of really good 
ideas on how you can secure the border, but yet we are going 
ahead, in my opinion, because this is a political promise, not 
a vetted or actual idea that would result in any increased 
security.
    How committed do you think the agency is or the agency 
during your tenure to actually pushing back against strategies 
that will not keep us any safer, that are, in fact, irrational 
deployments of Federal dollars, at the same time we are opening 
up the maritime borders, we are opening up the ports of entry 
(POE) called airports, we are not securing the Northern Border, 
but yet we are building a wall at huge cost and a wall that 
many people who live on the border, including the Congressional 
people, including at least one Senator thinks is absolutely the 
wrong strategy? When are we going to actually have a discussion 
not about whether we let the bids, as Senator McCaskill has 
been talking about, whether we actually ask for people to bid 
on these projects, when are we going to have a discussion on 
whether this actually is the right deployment of resources?
    Ms. Duke. Currently, Customs and Border Protection is 
working on a study, a comprehensive study to look at layers of 
security, not just the wall, to look at what other types of 
technology, infrastructure, and resources would be most 
appropriate and effective for the border. So that is currently 
working.
    Senator Heitkamp. Yes, but you said in addition to the 
wall. What I am saying is that we need to rethink all of border 
security. We need to really have a conversation, lots of great 
ideas from law enforcement, local law enforcement, on how we 
can do a better job, some discussions about actually clearing 
the brush so that you can detect people in a mile boundary. 
There are some really creative ideas that are being discussed 
on the Southern Border that, if you deploy all the resources on 
a wall, you are not going to get to that discussion because you 
are going to be fighting eminent domain, you are going to be 
fighting the local people on building this wall. And it just 
seems to me that someone needs to say, ``Stop. Let us really 
evaluate this.'' And if we believe public opinion polling, it 
is not something the American public thinks will make them more 
secure.
    And so, I just really hope--you are a common-sense person. 
You have been in the agency, I know. You obviously will work 
for the President, and I understand that. But we need to have 
someone and an agency that actually looks at what situational 
awareness means and how we best deploy the resources. I hope 
you take that message back to the Secretary. I am proud to 
support you, as you know, and we had a great talk about the 
Northern Border. But there are a lot of things that are 
happening right now that will be irreversible if we do not have 
a strategy.
    Ms. Duke. And I will engage with those Governors and local 
politicians also in gathering data about the Southern Border.
    Chairman Johnson. Thank you, Senator Heitkamp.
    Ms. Duke, very quickly, my guess is that once that study is 
complete and you have the results of your findings, you will be 
happy to come and testify before the Committee and lay out your 
findings, correct?
    Ms. Duke. Yes, I will come.
    Chairman Johnson. And we will call you to do that.
    Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. And thank you for 
being here today, Ms. Duke. I appreciate, as others have said, 
your willingness to serve and your public service before today.
    I want to touch a little bit on what Senator Heitkamp said 
because on the Northern Border, when I got elected 10 years ago 
and was on this Committee, I took an Assistant Secretary up to 
the Northern Border in the Bush Administration, and we went 
north of a little town called Turner, and there were a number 
of farmers and ranchers up there. And being new to this 
position, I just asked them silly questions like: What is your 
relationship with the CBP? And they said, the one person I 
talked to said, ``I would not stop and help them if they had a 
flat tire.'' So the relationship was not good, and I think that 
relationship is critically important for border security, 
whether it is on the north or whether it is on the south. I 
think that relationship has improved greatly. I still think it 
can be improved some more.
    But I think the point that Senator Heitkamp made about if 
these folks are working against us on the Northern Border, it 
really is going to cost us a lot more money to make it secure. 
So I just hope you take that to heart.
    I serve on the Homeland Security Subcommittee on 
Appropriations under John Boozman as the Chairman. I am the 
Ranking Member on that, and there has been a request, as has 
been referenced earlier in this discussion, about $20 million 
that will be reprogrammed in the Department of Homeland 
Security for the purpose of a wall. And my question to you is: 
Is that going to be the only purpose for the $20 million?
    Ms. Duke. I am not----
    Senator Tester. To do a pilot on a wall.
    Ms. Duke. I am not familiar with that reprogramming 
request. As an adviser, I have not been involved in those 
discussions, but I will engage, if confirmed.
    Senator Tester. OK. That is cool. So do you think the $20 
million for a study for a wall is the right way to spend that 
money for national security interests on the Southern Border? 
And the reason I say that is because I do not think there is 
anybody in this room, and certainly nobody on this dais, that 
does not think that our security of this country is critically 
important. We know that money is finite, and so we have to get 
the biggest bang for the buck.
    So if this $20 million is reprogrammed, do you think a 
pilot project on a wall should be the only thing it is used 
for?
    Ms. Duke. I think that we should test things before we 
deploy them, and we have to test not only are they effective in 
securing the border, but are they sustainable. So for that 
purpose, a pilot program I think we be useful.
    Senator Tester. Well, let me ask it to you this way: Would 
you be opposed to carving out part of that money to be used for 
technology as a way to secure the border--not entirely but in 
places where the wall might not be the most effective way to do 
it because of a number of reasons, whether it is landscape or 
eminent domain or whatever it might be?
    Ms. Duke. I am not sure if there is any pilots necessary on 
technology now. I would have to look into that. But I do know 
the plan does not just include physical barrier. It includes 
continued technology and infrastructure.
    Senator Tester. OK. So what you are telling me is that 
there are certain places on that Southern Border where there 
will be technology and not a wall?
    Ms. Duke. I do not know if it is an either/or, but there 
is, to my knowledge, no intent to discontinue use of 
technology.
    Senator Tester. OK.
    Ms. Duke. A multilayered approach to the southwest border.
    Senator Tester. I think you are a smart lady. I think you 
are very well fit for this job, and I intend to support you. 
But you do not think it would be wise to at least determine 
what the best avenue is, whether it is a line in the ground 
like you talked to the Adelos folks to determine if there is a 
tunnel going underneath or something walking over the top, or 
whether it is drones or whether it is manpower or whether it is 
a wall, to get the most bang for the money and to really ensure 
this country's national security on our borders? Doesn't that 
make more sense than to just say, well, we are just going to 
focus on the wall, and after we get that done, maybe we will 
spend another $30 billion on something else because it did not 
quite do the job we anticipated?
    Ms. Duke. My opinion is we should use the results of this 
pilot and the other information that Customs and Border 
Protection has in their program about technology cost and 
effectiveness, infrastructure cost and effectiveness, 
personnel, and take all that and determine what is the right 
combination for the complete security of the southwest border.
    Senator Tester. OK. And on this $20 million that is due to 
be reprogrammed--I will go back to the original question I 
had--would you be opposed to carving out part of that to be 
utilized for technology resources on the ground on the Southern 
Border specifically?
    Ms. Duke. I do not have the information to either be for or 
opposed at this time.
    Senator Tester. All right. OK. What role do you think that 
Canada and Mexico play in our border security?
    Ms. Duke. A strong role, and relations with those countries 
are essential.
    Senator Tester. I agree with that. So what impacts do you 
think that the fluff up between the President of the United 
States and the President of Mexico had as far as potentially 
improving or decreasing our border security? Are you concerned 
about that?
    Ms. Duke. I know that Secretary Kelly and I would be 
working on strong relations. He has already been to Mexico and 
Guatemala, and the relationship between Homeland Security in 
the United States and our bordering countries would be strong.
    Senator Tester. OK. Good. So you are going to basically do 
what you think you need to do to establish those relationships, 
whether it be with Mexico or Canada, to make sure that folks 
are talking and hopefully----
    Ms. Duke. Yes, and because of----
    Senator Tester. Hopefully the fights up above do not impact 
that.
    Ms. Duke. Because of the Secretary's role at U.S. Southern 
Command (SOUTHCOM), he has some preexisting relationships that 
are very strong on the Southern Border.
    Senator Tester. With Mexico, OK. Operation Stonegarden we 
talked a little bit about in my office, and I just what to make 
sure that I know where you are at on funding for Operation 
Stonegarden. Where are you at?
    Ms. Duke. I am supportive of the program.
    Senator Tester. OK. And it goes back to the original 
question that Senator Heitkamp has. Those are the kinds of 
partnerships that I think we can utilize on the Northern and 
the Southern border to be able to get the most bang for the 
buck. I intend to vote for your confirmation. I appreciate you 
being here today, and I appreciate you putting yourself up for 
this position.
    Ms. Duke. Thank you, Senator Tester.
    Chairman Johnson. Thank you, Senator Tester.
    By the way, a real-world example of the effectiveness of 
fencing, read our report, the result of my trip to Israel right 
before Christmas, 143 miles of fence put up in 2 years, cost of 
about $2.9 million per mile, cut the illegal immigration rate 
from 16,000 crossing their Southern Border to 18. And, by the 
way, Prime Minister Netanyahu said actually, three problems 
with fencing is tunnels, tunnels, tunnels. But still--it is not 
perfect, but it is pretty darn effective. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Thank you for being here. I appreciated our conversation in 
my office to be able to talk through a lot of these issues 
before. You have done a lot of work in acquisition and 
contracting. This has been an area that the Inspector General 
(IG) has noted for a while as a struggle for DHS, so I want to 
just be able to talk out loud on a couple of things with you to 
be able to ask you questions about.
    DHS's major acquisition programs tend to cost more than 
expected, take longer to deploy than planned, or deliver less 
capability than promised. That came out of the IG's report of 
late. So one of the questions I would have for you is: How do 
we fix that? Because we are talking about multiple major 
acquisition programs here. How do we make sure that at the end 
of the day the taxpayers got what they paid for?
    Ms. Duke. I think the single most initiative that has begun 
and needs to be strengthened is really developing good 
requirements based on operational needs before we get started. 
In the earlier days of Homeland Security, we tended to move 
quickly, maybe before we were ready, and that caused some 
changes--too many changes and stops and goes in the programs. 
So with the unity of effort, if confirmed, I would be focusing 
on having those operationally driven requirements before we go 
out and start acquiring something.
    Then, second, consistent oversight within the Department 
through the Chief Acquisition Officer, and also, if confirmed, 
I would continue to look more toward modular approaches to 
acquisition rather than trying to buy these big, huge fixes 
that are too complex to deploy effectively.
    Senator Lankford. So what does that mean for off-the-shelf 
technology, for instance? Because there has been an emphasis at 
times to say we are different, we have to have our own 
specialized piece of technology developed just for us, rather 
than an off-the-shelf piece that also has already been tested, 
has already been proven.
    Ms. Duke. I think that there needs to be a mix, and if 
confirmed, I would encourage--or I would mandate, I guess, that 
one of the roles of the Directorate of Science and Technolgy 
(S&T) be to look at those items that can either be used 
commercially or with minor modifications be used in a homeland 
security application, so looking toward industry to have 
already developed rather than major research and development 
(R&D) programs.
    Senator Lankford. OK. Thank you. As we talked about before 
as well, DHS has spent 13 years trying to be able to pull 
together their HR system. That is a long time to try to pull 
together an HR system. Now, what typically happens is every 2 
years there is an emphasis on it. There is a new plan of how we 
are going to attack it. Then leadership changes, and it never 
gets done. And then there is another 2-year plan to do it. 
There is a renaming of the previous plan. There is a new attack 
for it, a new plan. And for 13 years, the HR system continues 
to flounder.
    How do we move from that is an ongoing issue to that is a 
settled issue?
    Ms. Duke. I think the focus has been on the system, and I 
think that is an inappropriate focus. The approach has to be at 
a jointness that we are one Department and we are going to have 
the appropriate jointness in hiring and staffing, and then the 
system flows through that. And I do not think we have had to 
this date that agreement, and that is what I will drive through 
the Deputies of the components, and then I believe the system 
will flow from that.
    Senator Lankford. OK. Let me ask you an easy question. How 
do we solve the morale issue? This has been an issue for a 
while at DHS. These are some great folks that are patriots that 
want to be able to serve the Nation. And for whatever reason, 
there has been ongoing morale issues among DHS employees. How 
does that get solved?
    Ms. Duke. I think we solve that by giving them the 
authority and the tools and the judgment to do their job. We 
reinforce how much we value their ability to do the job. The 
Secretary and I lead by managing that what needs to be managed 
so it enables them to be free to do their jobs, and actually 
communicating better, not just about their little piece but 
having them understand the system. And I think those are always 
important. It is very difficult to work at DHS, and we need to 
recognize that.
    Senator Lankford. So I would say two things. One, people 
have a greater sense of joy in doing their job when they know 
their job is significant. Tom Carper, who serves on this 
Committee as well, has his ongoing statement that he comes back 
to over and over again. People love to do what is significant. 
They do a very significant national security task. And I think 
when they are allowed to do the job that they wanted to do, the 
reason they applied and came, I think that reaffirms them again 
to know, ``I am doing something that is valuable, and I am 
getting to do what I came to do.''
    The second part of that is to be able to help hold the 
ideas that they have on the field of what needs to be fixed to 
actually get to this Committee, and so we can fix them. There 
has at times been a tension between their ideas in the field 
and they see the obvious things that need to be done. But there 
is a barrier between this Committee and individuals in the 
field, and the ideas are not coming all the way to us.
    You can help us help them and the morale to be able to know 
that this Committee wants to hear the ideas from the field of 
how things can be fixed. They see the conflicts in the law and 
in regulatory issues, and they know, ``I wish I could do this, 
but I cannot do this, and I am stuck.'' If we hear that, that 
will help us to be able to help them and be able to stand by 
them as well.
    Let me talk briefly on some immigration issues as well. I 
know this is something that the Secretary has been very 
passionate about, in the case our Southern or Northern or 
Maritime Borders, but in the case of our Southern Border: the 
Southern Border of our Southern Border, that is, the 
relationship between Guatemala and Mexico. When we deal with a 
tremendous amount of illegal immigration coming into the 
country, it is from areas that come from that Mexico-Guatemala 
border. What can be done to be able to help us work with the 
Mexican authorities as they enforce their Southern Border?
    Ms. Duke. I think the relationships--I mean, what we have 
here is we have a joint purpose; we have a common ground. And I 
think that what we have to do is work with the enforcement on 
the demand side in the United States, and, again, that is not--
the demand management is not as much a DHS role. We are part of 
the solution, but we have to work as a country on that side. 
And then I think on the international side, our role in helping 
them with some of those push factors related to the crime and 
the economy and keep a good partnership and helping them when 
they are trying to help themselves as world leaders.
    Senator Lankford. Well, there are things that I know that 
have been proposed in the past, the Northern Alliance and the 
Alliance for Prosperity that the United States is partnering 
with Central America on, specifically those three countries--
Guatemala, Honduras, and El Salvador. If there are ideas 
specifically in the implementation of that or things that need 
to be done differently, that is something--I serve on the State 
and Foreign Ops Appropriations subcommittee--that we are very 
interested in getting input from DHS on as well. That does not 
need to just be a State Department focus. You also have a 
portion of that.
    One last question that I want to bounce of you, and that is 
this issue of operational control. The National Defense 
Authorization Act (NDAA) required DHS to come up with some sort 
of metrics and definition for what does operational control 
mean of our borders. Do you know what the status of that is or 
any recommendations for that?
    Ms. Duke. Yes, DHS is working to come up with the metrics 
behind operational control. That is very important, as the 
Chairman mentioned, not only for the wall where it has proven 
effective in other countries, but we have to know the 
effectiveness of the individual pieces of border security like 
the fencing and the wall, like the technology, but also across 
the border in general, we have to have those performance 
results. And that is working, and we are committed to that.
    Senator Lankford. OK. So you expect that operational 
control definition to come to us fairly quickly? I know you are 
not there at this point in that seat, but is that something 
that you think is a pretty quick priority?
    Ms. Duke. Absolutely, and the definition is in the 
Executive Order. This is the metrics to measure the definition.
    Senator Lankford. Right, and, yes, the metrics will be the 
key aspect.
    Ms. Duke. Yes.
    Senator Lankford. OK. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. There has been a request for a second 
round of questioning, which I will honor, so we will go to 
another round of 7 minutes. Beyond that, it will be written 
questions for the record. Senator McCaskill.
    Senator McCaskill. Yes, I want to start with the Secret 
Service budget. Let me preface this remark. I do not want 
anyone to misinterpret my question here. I think the President 
and his family deserve around-the-clock protection. That is not 
the argument. The argument is clearly there is going to be a 
lot more money needed because the Secret Service now has to 
protect Trump Tower. It has to protect Mar-a-Lago since the 
President goes there almost every weekend. It is going to have 
to protect his sons who travel constantly on international 
business. And I want a commitment from you that the budget will 
not only reflect an appropriate increase request for the Secret 
Service--because as you know, one of the issues we have had in 
the Secret Service which we finally turned the corner on is 
hiring and having enough people so that there is not this 
stress associated with a work pace that is totally unrealistic.
    So I want a commitment that the budget will reflect the 
needs of the Secret Service in light of the additional 
protection that is going to be required with this President 
and, most importantly, where that money is coming from, what 
part of Homeland Security is going to take a hit for the 
additional protection that the President and family demands 
because of this greatly expanded playing field of protection 
that is necessary for President Trump.
    Ms. Duke. Yes, Secretary Kelly has already directed the 
operating components that when they come in for their budget 
requests, they are, for the initial discussions, to come in 
with their true costs.
    Senator McCaskill. And I think that is really important 
that that is transparent. I do not want to get into the details 
of what the Secret Service is spending money on, but top lines 
certainly have to be transparent to the public. Agreed?
    Ms. Duke. Yes.
    Senator McCaskill. All right. I want to also talk about the 
technology. I got to tell you that what is going on on the 
Border Patrol, I did not have one border agent say the first 
thing they needed was a wall. They said I think 76 miles of a 
wall would be helpful. But they said it was more technology and 
particularly, in the processing centers, they do not have 
enough bandwidth in terms of their Internet signal to even use 
the technology they have. They cannot activate the kiosks with 
the radio frequency, and since we know more people are 
overstaying visas than they are coming across the border 
illegally, it seems to me that technology to support this radio 
frequency embedded in the visa card is pretty damn important. 
They cannot even use it because they do not even have bandwidth 
at the processing center. I mean, we are getting ready to go on 
a multi-billion-dollar project that we have not even done a 
cost-benefit analysis, and the processing centers do not have 
enough bandwidth. It is bizarre to me.
    The other thing that was bizarre to me was the technology 
they were using. They were using night cameras, and these 
border agents are so ingenious, they took a night camera, a 
military night camera, and attached it to a pole that goes up 
in the air, attached to a laptop, so they can surveil the 
geography where you need aerial--not wall but aerial--and they 
did this themselves. They did not do some big request for 
proposal (RFP) and spend billions of dollars acquiring this.
    And then lateral roads. Lateral roads kept being named to 
me by border agent after border agent. They see somebody, and 
they cannot get to them. So if we cannot get lateral roads over 
these lands, I am trying to figure out how we are going to do a 
wall.
    So I hope that all of those questions are something that 
you digest and get back to this Committee about those 
challenges and whether those items are going to be a priority 
in the budget.
    Ms. Duke. The operational requirements of the Border Patrol 
absolutely drive the requirements of future acquisitions. And 
the ports of entry, the legal ports of entry, cannot be 
forgotten as we secure the borders.
    Senator McCaskill. Will there be no requests for 
appropriation for billions of dollars until all these studies 
have been completed, until the pilot has been completed and 
until the cost-benefit analysis has been done?
    Ms. Duke. I honestly look forward to having those 
discussions with you, if confirmed, but I have not been 
involved in the budget requests to date.
    Senator McCaskill. Well, I know the Chairman, and he talks 
about business all the time and how business does it. And I 
know that there is no way a business would embark on a multi-
billion-dollar project without a cost-benefit in place. And so 
I will be very disappointed if there is a request for a giant 
appropriation for something that the Border Patrol never 
mentioned to me as a top priority, partially walls--I do not 
want to misrepresent what they said to me--but these other 
components which do not seem to be a high priority in terms of 
the President's political speeches.
    The Mexican relationship I think we all agree is very 
important to our border security. I know the President has 
asked for everyone to identify every dime that goes from this 
country to Mexico. He made a very clear promise in his campaign 
that Mexico would pay for this wall. His supporters chanted, 
``Mexico will pay for the wall.'' Do you believe the President 
is intending to cutoff any kind of financial support for our 
mutual drug interdiction efforts to Mexico as a way to try to 
keep his promise that Mexico is paying for the wall?
    Ms. Duke. I have not had any discussions with the 
President, so I honestly do not know his intent.
    Senator McCaskill. OK. Well, if that occurred, would you 
not agree that that would have a dire impact on Mexico's 
cooperation with our country in terms of their Southern Border?
    Ms. Duke. I look forward to being engaged in that and, 
supporting the President with information that we have from 
Homeland Security that would affect that decision.
    Senator McCaskill. Do you believe that cutting off all 
financial assistance to Mexico in order to keep a political 
promise is a way to build morale at the Department of Homeland 
Security?
    Ms. Duke. I am not comfortable discussing--I have not been 
involved in that subject, and I understand your concerns, and I 
would work with the Committee. And as Secretary Kelly said, he 
and I will advise the Administration with facts, and we will 
continue to do that. And I feel confident the President will 
make the right decisions on that issue.
    Senator McCaskill. Well, politicization, the political 
nature of issues being embedded within the Department of 
Homeland Security, you have acknowledged in front of this 
Committee is a problem. You said in a hearing in 2015, when we 
were looking at this morale issue, you believe part of the 
morale problem is that employees were feeling 
``disenfranchised.'' You attributed this in part to the 
increasing politicization of DHS' work, stating, ``DHS 
employees do have pride in their work, but my experience is 
that it is more politicized.'' You went on to explain that 
employees find it hard to feel like they are part of the 
mission because a lot of the mission and the decisions are made 
politically.
    Do you understand the point I am making, that the wall 
might fall firmly under that category, if we have no cost-
benefit analysis, if we are cutting off aid to Mexico, if we 
are, in fact, not giving the Border Patrol what they are asking 
for but, rather, what the President promised in a political 
context?
    Ms. Duke. Yes, and my initial work in this Administration 
and how I became reinvolved was connecting the career employees 
of DHS with the new Administration, to make sure that that 
alienation did not happen. And I feel confident we will move 
forward and that we will use the career and their great 
knowledge and experience to make the right decisions.
    Senator McCaskill. Well, I wish you the very best of luck 
in that. I think you are well equipped to do it. I will look 
forward to your candid answers about that and the protection of 
whistleblowers in the Department of Homeland Security in the 
future.
    Ms. Duke. Thank you.
    Chairman Johnson. If I do not say it publicly from the 
dais, I almost say it 100 percent of the time talking to 
witnesses before a hearing that the purpose of the hearings in 
this Committee is to lay out a reality, unvarnished truth, 
because that is the only way you solve a problem, which is why 
next week we are going to have a hearing--hearing from the 
people in the front lines at points of entry, points between 
the ports of entry, and in the interior from ICE. So we are 
going to have front-line enforcement officers, and we are going 
to lay out that reality. So I am looking forward to that, and I 
am sure you will as well.
    Ms. Duke. And you have my commitment, Mr. Chairman, that we 
will be hearing from those people also in developing 
requirements.
    Chairman Johnson. Again, that is what I am certainly seeing 
from Secretary Kelly. He is getting down there talking to the 
boots on the ground, and that is how you have to manage. 
Senator Harris.
    Senator Harris. Thank you.
    Ms. Duke, I would like to return to the decision apparently 
that the Department has made about separating children from 
their parents. Do you know when this is supposed to take 
effect?
    Ms. Duke. It is not a decision. The Secretary, I talked to 
him personally about it. He considers it still a possibility. 
They are looking at a wide range of deterrence, and it was 
raised as a possible method of deterrence. But there was no 
decision made, and there is no implementation plan currently.
    Senator Harris. So let us think of this as an opportunity 
for the public to weigh in before they make a decision. I would 
urge you to urge the Secretary to think about this from the 
context of, to the Chairman's point, the details of what this 
would look like on the ground. For example, if a family appears 
at the border and of those children with that family are 
nursing babies, what will the policy be as it relates to that 
nursing baby and that mom? If a family arrives at the border 
and among those children are toddlers who are potty training, 
what will the policy of the Department be as it relates to the 
separation of those children from those parents? What will the 
policy of the Department be if they arrive at the border and a 
child is sick and needs comfort to be able to sleep through the 
night from his mother? What will the Department's policy be? 
Because those are very real scenarios that all of us who have 
parented a child know, to be very real, and can be very 
traumatic if not taken into account in terms of the effect on 
those children and those families, when we are leaving it up to 
whoever is from CBP or ICE there to make the decision in their 
best judgment if they have not been given clear guidance and 
training on that issue.
    So I would urge you to pass this on to the Secretary, and 
also in your capacity as number two of that Department, if 
confirmed, to require that everybody be very clear about what 
this will mean and be very clear about the details in terms of 
the training and the protocols and the policy.
    And as you know, the American Academy of Pediatrics has 
issued a statement in opposition to the practice of separating 
children from their parents, particularly in these kinds of 
cases, because of the longstanding, potentially lifelong trauma 
that results to those individuals, and it could be the parents 
as well as the children.
    Back to the issue of the hiring standards, I believe this 
to be an issue that is connected with all that we need to do in 
terms of trust, as we discussed before, trust of government. I 
also believe it to be directly related to the morale of the 
good men and women of the Department, because, you see, 
bringing in 15,000 new officers without appropriate vetting 
will be a morale issue for the entire Department, and in 
particular for those who came in when the standards were high 
and were trained and brought into the field understanding their 
mission and respecting the power they have.
    So I would urge you to be very clear in your role of 
leadership, if confirmed, that we cannot compromise for the 
sake of building up the forces as has been directed through the 
Executive Order, because there will be--I guarantee it as 
someone who has worked in law enforcement my entire career--
many unintended consequences, which will also include a public 
perception that the Department is not run well and cannot be 
trusted. And that will indeed be something that is, I think, an 
unintended consequence but very dire in terms of the goal of 
the Department and the important goals of the Department in 
terms of securing our country and national security. And it 
will also be an officer safety issue.
    So on this point, back to the issue of polygraph testing, 
what will be your position going into the Department if this is 
on the table as something that the Department is considering 
eliminating in order to process people quickly to reach that 
goal of 15,000 new officers?
    Ms. Duke. Senator, I commit to you--I think we have a 
meeting in about a week. I will go back and I will look at that 
specific issue. I have not been involved nor looked at the 
rationale behind the possibility of eliminating the polygraph, 
and I will be prepared either in a question for the record or 
in our meeting to answer that specifically.
    Senator Harris. OK. I appreciate that. Thank you.
    Chairman Johnson. Senator Harris, if you would just stick 
around for a couple minutes, I would like to tell you a story 
that might give you a little comfort.
    Shortly after the issuance of the first Executive Order on, 
we will call it, the travel ban, I got a text from my daughter 
who was born with a congenital heart defect. She is 33 years 
old now. She had corrective surgery. She is actually a nurse 
practitioner serving in neonatal intensive care units. And 
there was an article written about this little Iranian girl, a 
little baby that also had a heart defect that was scheduled for 
surgery at an Oregon university, one of the university 
hospitals in Oregon. And so I sent that immediately to my 
staff, who immediately contacted DHS and the Secretary, as well 
as I had it printed out. We were voting late at night. I gave 
it to Senator Wyden, who passed it along to Senator Merkley. 
Secretary Kelly personally got involved.
    Now, this was not a situation where a visa had already been 
issued and they were at the airport and, the EO had an 
immediate impact. But the Secretary personally got involved, 
and this little baby girl was admitted into the country without 
a visa, working with the State Department, very quickly, within 
hours. And so just the compassion from the Secretary, from Ms. 
Duke I think will be demonstrated time and time again. So just 
to provide a little comfort, we have exceptional people, 
certainly with Secretary Kelly, that we have voted to confirm, 
I think with Ms. Duke as well. There is no political party that 
has a monopoly on compassion.
    Senator Harris. No, I think----
    Chairman Johnson. We want to do this. We want to enforce 
our laws. We want to keep this Nation safe.
    Senator Harris. I think we are all in agreement on that. My 
concern is not about what is in the heart of Secretary Kelly. 
It is about what is in the instructions and guidance and the 
policies.
    Chairman Johnson. The good news is the little baby did get 
admitted, and her surgery has been successful. I want to see 
the news article.
    Senator Harris. It is a great story.
    Chairman Johnson. I want to hear more information, but 
there are privacy issues as well. But, again, I thought that 
was a pretty good news story, and, again, that certainly 
demonstrated to me how quickly the Secretary personally got 
involved, the waivers that were granted, compassion to a little 
Iranian baby girl I thought spoke volumes. But, again, I 
appreciate your good questions.
    Ms. Duke, again, thank you. I want to thank your family. I 
will come down and shake your hands after the hearing. You know 
this is a commitment. You know the serious nature of the 
responsibility you are assuming, and I just want to thank you 
for it.
    The nominee has made financial disclosures and provided 
responses to biographical and prehearing questions submitted by 
the Committee. Without objection, this information will be made 
part of the hearing record, with the exception of the financial 
data, which are on file and available for public inspection in 
the Committee offices.\1\
---------------------------------------------------------------------------
    \1\ The information of Ms. Duke appears in the Appendix on page 39.
---------------------------------------------------------------------------
    Chairman Johnson. The hearing record will remain open until 
noon tomorrow, March 9th, for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:03 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
